Z0-3T5
No.

Supreme Court, U.S.
FILED

SEP I 6 2020
In The

OFFICE OF THE CLERK

Supreme Court of the United States
Richard Lee Abrams
Petitioner
vs

Gavin Newsom, in his official capacity as Governor of
the State of California
Respondent

On Petition for a Writ of Certiorari
To the Ninth Circuit Court of Appeals

PETITION FOR WRIT OF CERTIORARI
Richard Lee Abrams
In Pro Per
1916 North Saint Andrews Place
Hollywood, California 90068-3602
323/957-9588
AbramsRL@MaiL.com

Received
SEP 2 3 2020

QUESTIONS PRESENTED
Petitioner’s First Amended Complaint (FAC) challenged California’s antiJewish policy which arose from the interpretation of California State
Constitution Article VI Section that judges may use their anti-Jewish bias in
controlling their courtrooms. Judges may exclude Jews from hearings such as
side bars, and judges may ignore and alter evidence offered by Jews. Thereafter,
other state agencies enforce the anti-Jewish policy such as the State Bar which
is enforcing the policy against Petitioner. California’s discriminatory policy
logically allows similar treatment of any group when a judge dislikes an
attorney’s or a litigant’s race, creed, religion, color, national origin, etc.
Petitioner filed suit in District Court of Central District of California in order to
challenge the constitutionality of California’s policy.
The questions presented are:

1.

Did the district court and the Ninth Circuit abuse their discretion by

not allowing Petitioner to even argue that the behavior of the Commission on
Judicial Performance and California State Bar’s disciplinary proceedings against
petitioner constitute sufficient state action for petitioner to defeat a Motion to
Dismiss?

f4

K

2.

Did the district court and the Ninth Circuit abuse their discretion by

not allowing Petitioner to even argue that the foreseeable behavior of state
agencies posed a sufficient risk to individuals’ civil rights so as to constitute
sufficient state action for petitioner to defeat a Motion to Dismiss?

PARTIES TO THE PROCEEDING
Petitioner Richard Lee Abrams was the Plaintiff in the courts below and
Respondent State of California was the defendant.

TABLE OF CONTENTS

QUESTIONS PRESENTED

-l-

PARTIES TO THE PROCEEDING

-l-

TABLE OF CONTENTS

-li-

TABLE OF AUTHORITIES

-v-

OPINIONS BELOW

-v-

i

-ii-

JURISDICTION

-v-

PETITION FOR WRIT OF CERTIORARI

-vi-

CONSTITUTIONAL PROVISIONS INVOLVED... -vi-

STATEMENT OF CASE

1

1. The State of Californian trail court judge based his ruling
against Petitioner on Petitioner’s being a troublemaker Jew
who would refuse Jesus Christ.............................................

1

2. District Court finds the FAC to be conclusory and
insufficient as a matter of law, but denies him a single
opportunity amend his complaint................................

4

3. The Appeals Court Similarly Thwarts Petitioner’s
Civil Rights by summarily denying him an opportunity
to amend despite the State Bar’s disciplinary actions
to enforce the anti-Jewish policy...................................

5

4. The State Bar Judge Yvette Roland Reveals
the anti-Jewish Bias by ending Judge Miles’ stay so that
she could rule against Petitioner before Petitioner could
file for a Writ of Certiorari..............................................

6

-Ill-

8

REASONS FOR GRANTING PETITION
1.
Avoidance of Constitutional Issue by Denying
Plaintiff Opportunity Amend a Complaint Is a
Substantial Deprivation of Due Process................... 8
2.
Conflict Between US Constitution and
California Constitution.................................
3.
De Jure Bigotry Flames the Passions of
Group Right Bigots while Denigrating Inalienable
and Constitutional Rights......................................

9

10

4.

California’s position essentially adopts a
form of Group Rights - Liabilities where indivi­
duals are rewarded or penalized on the basis of
the group to which they belong..........................

12

5.
Lack of Due Process Should Not Be Allowed
to Trample on Substantive Rights..........................

13

6.
De Jure and De Facto Bigotry Flame the
Passions of Bigots While Denigrating Inalienable
and Constitutional Rights.....................................

14

CONCLUSION

16

CERTIFICATE OF COMPLIANCE

17

-IV-

I*?'-

TABLE OF AUTHORITIES

Federal Rule of Civil Procedure 15(a) (2)

4

Other Amendments. In all other cases, a party may amend its
pleading . . . with ... the court's leave. The court should freely
give leave when justice so requires.”
Foman v. Davis, 371 U.S. 178 (1962)

4

OPINIONS BELOW
The Court of Appeals opinion is not published included in the Appendix
(App) at App-1 case number 19-55297

The district court opinion is not published included in the Appendix (App)
at App-2 case number 2:18-cv-06687

JURISDICTION
The judgment was entered on April 21,2020 and on March 29,2020, the
Court extended the time to file a Petition for Certiorari by one hundred fifty
(150) from judgment date to September 19, 2020. Jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
-V-

PETITION FOR WRIT OF CERTIORARI
Richard Lee Abrams respectfully petition t his Court for Writ of Certiorari
to review the decisions of the Appeals Court together with the judgment and
decision of the District Court of the Central District of California.

CONSTITUTIONAL PROVISIONS INVOLVED
The First Amendment of the Untied States Constitution states:
“Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof;.. “
The Fourteenth Amendment of the United States Constitution states:
.. No state shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.”
There is no need for any intervening statute or case law between the
Constitution and the state’s anti-Jewish policy in order to establish that
discriminating against a person because he is a trouble maker Jew who would
refuse Jesus Christ is unconstitutional.

-VI-

STATEMENT OF CASE
1. The State of Californian trail court judge based his ruling against
Petitioner on Petitioner’s being a troublemaker Jew who would refuse Jesus
Christ

On February 10,2015, opposing counsel, Frank Angel, in the state court
* •

case, SaveHollywood.org (SaveHywd), Hollywoodians Encouraging Logical
Planning (HELP) vs City of Los Angeles, BS 138 370, told the post CEQA trial ■
judge, John Torribio, that Petitioner1 is a troublemaker Jew “who would refuse
Jesus Christ.” The Judge Torribio and Attorney Frank Angel thereupon had a
side bar which excluded petitioner,2 but petitioner overheard some comments
about his being a Jew named Abrams and a trouble maker. Afterwards the trial
court judge changed his tentative ruling from being favorable to Petitioner to
being adverse to the Petitioner and altered evidence offered by Petitioner. (App3, FAC RLA 019-020) When the Judge Torribio’s action were challenged for
bias, Judge Torribio did not deny any allegation but rather asserted California
rt
'For reasons not pertinent to this case, Petitioner had accumulated his
various degrees under the name of Richard Scott MacNaughton, and hence, by his'
last name, he did not stand out as Jewish.
2Mildly reminiscent of General Grant’s General Order No. 11 (1862)
expelling Jews as “unprincipled traders’ from certain southern states.
Page 1 of 16

Constitution article VI section 10 (cal, Const, art VI sec 10 ) gave judges tliS
,

/

f

■

constitutional right to take a person’s religion ethnicity into consideration as part
of control of his courtroom. (App-3, FAC,

26, RLA 020-021) Based on his

revised ruling and after altering the facts, Judge Torribio sanctioned Petitioner
$27,600.00.3 (App-3, FAC,

25, RLA 020)

The state appellate court division five adopted the trial judge’s position
that Cal Const, art VI sec 10 gave trial court judges that right. App-3, FAC, f 27,
RLA 021)

On August 12, 2015, the State Supreme Court declined to review the
appellate court’s interpretation of Cal. Const, art VI sec 10. (App-4, RLA 029)

When Petitioner’s client, SaveHywd, appealed the merits of the trial
court’s decision removing Petitioner as Plaintiffs attorney, the appellate court
summarily dismissed the appeal. (APP-3, FAC 28, RLA 021)
3The prior September 2014, Judge Allan Goodman, the CEQA trial court
judge, had already denied opposing counsel Frank Angel’s motion that he was
SaveHywd’s attorney but rather Judge Goodman said, Frank Angel represented a
non-party, noting that Frank Angel was in the wrong forum to press his claim.
Frank Angel never appealed or sought writ from Judge Goodman’s determination
so that it became the law of the case. (APP-3, FAC, U 15, RLA 015-016)
Page 2 of 16

Thereafter, the appellate court affirmed the monetary sanctions against
Petitioner.

The California State Bar then initiated proceedings against Petitioner
when he refused to pay monetary actions which had been based on his religionethnicity.

When State Bar Judge Donald Miles saw that the State Bar was applying
an anti-Jewish policy against Petitioner, he voluntarily stayed the State Bar
proceedings so that Petitioner could file a lawsuit challenging the discriminatory
policy.

Because Judge Miles had given Petitioner a deadline to file, Petitioner,
acting in pro per, filed a complaint with the Central District Court for the State
of California. After satisfying Judge Miles’ initial filing deadline and Judge
Miles’ then staying (abating) the State Bar proceedings until Petitioner’s federal
litigation had concluded (App-3, FAC, 32, RLA 023), Petitioner filed a First
Amended Complaint [FAC].
The first complaint which the district court considered was the FAC. Thus,
for purposes of a Motion to Strike, the FAC is the original complaint.
Page 3 of 16

2. District Court finds the FAC to be conclusory and insufficient as 'a
matter of law, but denies him a single opportunity amend his complaint. r
On February 20, 2019, the district court finding inter alia Petitioner’s
allegations “conclusory and insufficient as a matter of law” (App-2, RLA 007)
granted California’s Motion to Strike with prejudice not allowing Petitioner
leave to amend. (App-2, RLA 010)

Furthermore, the district court did not allow Petitioner an opportunity to
be heard after petitioner saw the court’s reasoning, stating that it was barred by
the 11th amendment as there was no state of California enforcement despite the
fact that the State Bar’s enforcement action was pending. (App-2, RLA 009)
Federal Rule of Civil Procedure 15(a) (2), Foman v. Davis, 371 U.S. 178,182
(1962)

Other Amendments. In all other cases, a party may amend its
pleading . . . with ... the court’s leave. The court should freely
give leave when justice so requires.” Federal Rule of Civil
Procedure 15(a) (2)
“.. outright refusal to grant the leave without any justifying reason
appearing for the denial is not an exercise of discretion; it is merely
abuse of that discretion and inconsistent with the spirit of the
Federal Rules. Foman at 182
Page 4 of 16

sp’k

While allowing Petitioner the right to be heard is discretionary, Petitioner
asserts that it was an abuse of discretion for the district court not to allow
petitioner at least one opportunity to file an amended complaint addressing the
court’s belief that he could not allege state agency action other than the
Governor. The District Court’s finding that the allegations were conclusionary
and hence insufficient is the type finding which screams for at least one
opportunity to amend, especially when the petitioner is in pro per.

3. The Appeals Court similarly thwarts Petitioner’s Civil Rights by
summarily denying him an opportunity to amend despite the State Bar’s
pending disciplinary actions to enforce the anti-Jewish policy.

On April 21,2020, the Appeals Court denied petitioner’ appeal a without
hearing, stating that it was barred by the 11th Amendment as there was no state
of California enforcement despite the fact that the State Bar’s enforcement
action was pending.

While allowing Petitioner the right to be heard is discretionary, Petitioner
asserts that it was an abuse of discretion for the appeals court not to remand the
case to the district court so that Petitioner could file an amended complaint
which was more factual, less conclusory and addressed the court’s belief that he
Page 5 of 16

could not allege some state agency action other than the Governor. Foman v.
Davis, 371 U.S. 178, 182 (1962)

4. The State Bar Judge Yvette Roland reveals her anti-Jewish Bias by
ending Judge Miles’ stay so that she could rule against Petitioner before he
petitioned for a Writ of Certiorari

On May 26,2020, upon learning Petitioner would be filing a Petition for
Certiorari with this court over the “state’s anti-Jewish policy,” State Bar Judge
Yvette Roland revoked Judge Miles’ stay, stating that Judge Miles had retired
and “I am here now.” Thereafter, Judge Roland suspended Petitioner and is in
the process of disbarring him due to his opposition to the anti-Jewish policy.
(Upon Petitioner’s complaining that State Bar’s inability to send the audio ofthe
hearing with its ZOOM video was making it very hard for Petitioner to
understand what was being said due to his significant hearing deficit, Judge
Roland replied that was petitioner’s problem and made no effort to provide
proper audio.)

Furthermore, Judge Roland ruled that Petitioner could not raise any
constitutional defense to the State Bar charges. The State Bar prosecutor and
Judge Roland knew for a fact that Petitioner was completely innocent. The law
Page 6 of 16

of the case from September 2014 was that Petitioner was in fact SaveHywd’s
attorney and Frank Angel was not, but Judge Roland excluded that evidence
from the State Bar proceeding. (APP-5, RLA 030-031)

•\Q' if'

Proceeding on the basis of the underlying case, which was proven to be
false, was similar to relying on ballistic tests which the prosecutor and the court
knew for a fact were false and then ruling that the defendant could not challenge
the ballistics tests. Both the State Bar prosecutors and Judge Roland knew that
the Judge Torribio ruling on which they were relying was based on the antiJewish interpretation of Cal. Const, art VI sec 10 and was the opposite of the
September 2014 law of the case. Thus, a logical inference for Judge Roland’s
terminating Judge Miles’ stay order was to convict petitioner before the federal
court’s could rule on the constitutionality of California’s policy.

1

Petitioner’s suspension and impending disbarment for his opposition'to

the anti-Jewish policy show that the anti-Jewish policy is being enforced by a
state agency. If the State Bar follows the same course as was applied against
•*

attorney Richard I Fine, Petitioner will face a huge fine and ersatz attorney fee
bill which he cannot pay, and then he will be incarcerated under the theory of
coercive confinement by the Sheriff of Los Angeles County.
Page 7 of 16

Had the Appeals Court remand the case, Petitioner could have repaired
the pleading defects to show state action other than the Governor

REASONS FOR GRANTING PETITION

1. Avoidance of Constitutional Issue by Denying Plaintiff Opportunity
Amend a Complaint Is a Substantial Deprivation of Due Process

The reason for this Court to grant the Petition is not the procedural
violation of not allowing Petitioner the opportunity to allege state enforcement,
but rather the deprivation of due process and constitutional rights. Denying him
leave to amend without an opportunity to reply to the appeals court’s thinking
due to the district court’s belief that Attorney MacNaughton-Abrams’s
complaint and general and hence could not allege that some state agency, other
than the office of the Governor, was in fact a denial of his civil rights to be free
of religious - ethnic discrimination.

The State Bar’s actual suspension of applicant over his objection to the
anti-Jewish policy shows that he should have been allowed to amend his

Page 8 of 16

complaint to factually allege state agencies were enforcing the anti-Jewish
policy.
,.V

'

There is no logical reason that administrative law judges and other state
agencies whose decisions may result in appeals to administrative law judges
would not also seize upon art VI sec 10. Nor, is there any reason to believe that
the policy would be limited to Jews. If Jews, why not Muslims or Gays or any
other group which a judge considers to be trouble makers?

2.

Conflict Between US Constitution and California Constitution

California’s barring a Jewish attorney from a sidebar, altering his evidence
and then ruling against the attorney and sanctioning him on the basis that
California Constitution art VI sec 10 is a gross violation of a person’s
inalienable rights to Liberty as stated in the Declaration of Independence. The
US Constitution’s Preamble states its purpose is to secure the “blessings of
Liberty,” and the First Amendment guarantees each person religious freedom.
Petitioner cannot imagine a more direct violation on his basic inalienable and
constitutional right than California Const, art VI sec 10 allowing judges to base
their decisions on religious-ethnic bigotry and then to alter the evidence to make
Page 9 of 16

it appear as if the facts support the judge’s opinion.

3.
De Jure Bigotry Flames the Passions of Group Right Bigots
while Denigrating Inalienable and Constitutional Rights

When the nation sees Nazi’s marching and shouting “Jews Shall not
Replace Us” and anti-Jewish statements Jews from members of Congress, the
idea that judges may engage in de jure prejudice creates an intolerable
domesticate situation. As Black Lives Matter points out, racism is systemic and
I

California’s allowing its constitution to condone religious-ethnic bigotry shows
how prejudice is systemic. The predatory racist nature of the system is more
deadly for Blacks, but the same judicial justification which allows a judge to
alter evidence and bar an attorney from a hearing because he is a troublemaker
Jew who wold refuse Jesus Christ allows judges to engage in anti-Black
discrimination.

While the District Court found the FAC to be too general, Petitioner did
include specific facts as to his own situation (App-3, FAC,

13-30, RLA

0015-022). The most important facts may be that when provided an opportunity
to, deny his anti-Jewish bias, Judge Torribio did not, but instead he justified his
Page 10 of 16

**-'

conduct by asserting California Constitution art VI sec 10. (APP-3, FAC, %26,
>

RLA 020) After learning that Attorney MacNaughton was a troublemaker Jew,
■ H

Judge Torribio barred him from the sidebar where his religion-ethnicity was
discussed. Judge Torribio then changed his tentative ruling to be against
Petitioner, ignored the fact that Judge Goodman had previously ruled on the
issue and had determinated that Attorney MacNaughton was SaveHywd’s
attorney and Frank Angel was not but rather represented a non-party corporation
with a similar name. Judge Torribio knew that Judge Goodman’s September
2014 determination had advised Frank Angel that the SaveHywd lawsuit was
not the proper forum for him to press his claim. As the attorney for a non=party
he had no standing to bring any motion in the SaveHywd litigation. Judge
Torribio then falsely stated that it was an undisputed fact that the July 18,2012
t

SaveHywd Attorney retainer agreement had hired Frank Angel when it did not
mention Frank Angel but the retainer agreement clearly stated that SaveHywd
■jS

hired Attorney Richard MacNaughton. Judge Torribio also made it an
undisputed fact the Ziggy Kruse testified that SaveHywd retained Frank Angel
and not Attorney MacNaughton, when in fact she testified that it had retained
Attorney MacNaughton. Despite ample opportunity to do so, Judge Torribio
never denied that he made these factual fabrications due to his anti-Jewish bias.
Thus, we are not only presented with Judge Torribio’s agreeing with some anti*

Page 11 of 16

'>

.

Jewish statement and not admonishing Frank Angel, but also Judge Torribio’s
adopting the anti-Jewish sentiment and running with it. Thereafter, the state
appellate Justice Paul Turner did not allow SaveHywd to appeal Judge
Torribio’s ruling.

••V

•

Upon learning of Judge Torribio’s anti-Jewish bias and his adoptive
admission of his anti-Jewish conduct, on August 12, 2015, the California
Supreme Court gave its approval of the anti-Jewish interpretation of Cal. Const,
art VI sec 10 in the case of Hollywoodians Encouraging Logical Planning vs
City of Los Angeles S227630.

4.

California’s position essentially adopts a form of Group Rights Liabilities where individuals are rewarded or penalized on the basis of the
group to which they belong.

Both Thomas Jefferson and Martin Luther King agreed that each man had
<■

*

\

his individual inalienable rights and each should be judged on the basis of his
character and not the color of his skin. Today, too many people are making
terrible appeals to bigotry and intolerance. One should not be fool into thinking
that it is only a few crazy right wing extremists which are promoting this Group
Rights thinking with something called white entitlement (privilege) where all
Page 12 of 16

»T

*m

j

V

5'

VffcJ

*. '

/V

<iw

4

.5

1 •

\

5

t

t

t

/

1

t'

»

i

<

!r

s-;

7

(..
• *:

■T',

„r

-7',

i

r

v

t

v

f.

•s?l.

i

i:

i

4

(

t

> 5~t . /
s

j

i

•;

i

c.

r.

t:
?

(

%

f

t

l

-r

t.

;
;

I

r

K

i

;
>

•».
s

*

l*

white people some are responsible for slavery. In the new political landscape
of Democrat Identity Politics, Jews are the worst of the Whites, while many
White racists find Jews the worst of the non-whites.

5.

Lack of Due Process Should Not Be Allowed to Trample
on Substantive Rights

As no jurist wanted to deal with the substantial abrogations of Petitioner
Abrams’ inalienable and constitutional rights, they hid behind ersatz procedure.
First, Judge Turner refused to allow his division to hear the appeal of Judge
Torribio ’ s decision. The State Supreme Court denied HELP ’ s petition obj ecting
to Cal Const, art VI sec 10 thereby authorizing intolerance. All of Division FiVe
justices sat silent as Justice Turner threatened the other Jewish Attorney for
SaVeHywd, Edward Pilot, to quit as one of its attorney or face state bar action
initiated by Judge Turner. It is hard to imagine that any panel ofjudges would
sit by and allow a Black attorney to be similarly threatened. In disciplining
petitioner, State Bar ordered that petitioner could not refer to Judge Torribio or
any of the anti-Jewish behavior, which was his defense for not paying the
$27,600.00 in monetary sanctions.

Page 13 of 16

ft I

%

r\)

i

}>{!£, >,

t-

;

■f

>;

&

V

X

V
■■

{

;

v

{

V

• 1

.U

IC

v

*

=5

i*
1

r

•v

s

*/

*
v£

i

0 X

k

?

•j

I

>

‘

r

l

■r

/
•/
i

/.«

t

i

:n
i

i

-j-

:

-c

i

I

•j.

i

’

v

y.t

6. De Jure and De Facto Bigotry Flame the Passions of Bigots
While Denigrating Inalienable and Constitutional Rights

California’s position on enforcing the sanctions based on a case of
religious intolerance adopts a discriminatory policy Group Rights - Liabilities
where individuals are penalized on the basis of the group to which they belong.
A state’s policy does not have to arise from a statute, but can be crated by
case law. Both Thomas Jefferson and Martin Luther King agreed that each man
had his individual inalienable rights and each should be judged on the basis of
his individual character and not the color of his skin. Today, too many people
are making terrible appeals to bigotry and intolerance. It is not a few right and
left wing extremists which are promoting this Group Rights thinking. Liberals
promote the group iniquity of white people by something called White
Entitlement (Privilege) where all white people are responsible for all problems
1

of Blacks and hence all white people should make reparations. For many of the
White Entitlement theorists, Jews are the worst of the whites. We shall just
close our eyes to the mass murders in the synagogues and Jewish Community
Centers. We’ll follow the California court’s lead while we look away from antiSemitism and pretend not to notice the violence against Muslims or Blacks who
are hunted down like prey.
Page 14 of 16

Many months early in October 2016, Presidential candidate Hillary
Clinton found a new group for people to dislike. During the Obama era millions
of blue color whites in the Rust Belt had lost their jobs to overseas
manufacturers, had lost their homes in foreclosure and lost everything else in
bankruptcies after the Crash of 2008 while Wall Street received trillions of
dollars of government bailouts, and then were inflicted by the Opioid Epidemic.,
Hillary Clinton’s group label for these suffering individuals is The D-word,
“Deplorables.” While no court can order a political candidate not to ignore
individuals and their inalienable rights to life, liberty and the pursuit of
happiness, the courts surely should not follow suit by allowing cases to turn on
an attorney religious, ethnic or racial background.

Only internecine violence will follow from this identity group rights
politics where facts and law are fungible quantities depending on the whim of
. ./ *

the presiding judge. It would be beyond naive to believe that the “racists,” for

lack of a better word, don’t sense when they can invoke their own brand of
group rights against innocent people.
Ill

Page 15 of 16

CONCLUSION
The petition for certiorari should be granted.

Respectfully Submitted,

(sfachard <£Lee Abram
Richard Lee Abrams, in pro per
(electronically signed)
1916 North Saint Andrews Place
Los Angeles, CA 90068
Tuesday September 15,2020

Page 16 of 16

